MAX RENEA HICKS
ATTORNEY AT LAW
Post Office Box 303187
Austin, Texas 78703

August 4, 2021

(512) 480-8231
rhicks@renea-hicks.com

Scott Harris
Clerk, Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

by e-file

Re: City of Austin, Texas v. Reagan National Advertising of Texas, Inc., et al.,
No. 20-1029
Dear Mr. Harris:
The petition for certiorari in this case captioned the lead respondent as
“Reagan National Advertising of Texas, Incorporated.” We are writing to
request that the Court correct the caption to reflect respondent’s name as
“Reagan National Advertising of Austin, Incorporated.”
This request is being made because the Fifth Circuit’s case caption, the record
below, and all documents filed in this case reflect that respondent is “Reagan
National Advertising of Austin, Incorporated.” The change from “of Austin” to
“of Texas” was inadvertent.
Respondent Reagan National Advertising of Austin, Incorporated, through
counsel of record, consents to this request.
Thank you for your consideration.
Sincerely,
_/s/ Renea Hicks____________
Renea Hicks
Counsel of Record for Petitioner
cc: B. Russell Horton
J. Allen Smith

Board Certified CIVIL APPELLATE LAW - Texas Board of Legal Specialization

